 OFFICE OF INSPECTOR GENERAL
               Audit Report

Audit of the Railroad Medicare Part B Eligibility
       and Premium Collection Process


                Report No. 12-10
               September 26, 2012




   RAILROAD RETIREMENT BOARD
                              EXECUTIVE SUMMARY

The Railroad Retirement Board (RRB), Office of Inspector General (OIG) conducted an
audit of the Railroad Medicare Part B Eligibility and Premium Collection Process. The
audit focused on the eligibility of Railroad Medicare participants, the accuracy of Part B
premiums and penalties, and the adequacy of documentation acquired and maintained
when Part B is declined. The RRB-OIG conducted this audit at RRB headquarters in
Chicago, Illinois from July 2011 to June 2012.

Key Findings

The RRB-OIG identified the following weaknesses:

   •   A penalty amount was omitted from a manual Part B Medicare premium
       determination.
   •   Ineffective controls exist for manually determining Railroad Medicare entitlement
       dates for disabled children.
   •   Inconsistencies were found between MIRTEL and the CMS’ system records; in
       both instances RRB dual annuitant beneficiary records were involved.

Key Recommendations

To address the identified weaknesses, we recommended that RRB officials take the
necessary actions to establish and collect the receivable amount of the penalty omitted;
issue a reminder alert with instructions for correctly processing closed period manual
penalty amounts; provide further training to claims examiners that will address the risks
of making an incorrect manual determination when processing Medicare claims for
disabled children; and evaluate the impact of the inconsistent RRB dual annuitant
beneficiary records in MIRTEL and ensure that these records do not present a risk for
processing duplicate Medicare claims.

Management’s Response

The Office of Program’s has initiated corrective action addressing two of our
recommendations, and has agreed to address two of our recommendations. The full
text of management’s response is included in this report as Appendix II.
                                           TABLE OF CONTENTS

EXECUTIVE SUMMARY

INTRODUCTION

 Background ............................................................................................................................ 1
    Medicare ............................................................................................................................. 1
    Railroad Medicare ............................................................................................................... 2
 Audit Objectives ..................................................................................................................... 2
 Scope ..................................................................................................................................... 3
 Methodology ........................................................................................................................... 3

RESULTS OF AUDIT

 Manual Penalty Amount Was Omitted From the Part B Premium Determination .................... 4
    Recommendations .............................................................................................................. 5
    Management Response ...................................................................................................... 5
 Ineffective Controls for Determining Medicare Entitlement Dates for Disabled Children ......... 5
    Recommendation ................................................................................................................ 6
    Management Response ...................................................................................................... 6
    RRB-OIG’s Comments on Management’s Response .......................................................... 6
 Inconsistent RRB Dual Annuitant Beneficiary Records Exist within RRB’s MIRTEL System ... 7
    Recommendation ................................................................................................................ 7
    Management Response ...................................................................................................... 7
    RRB-OIG’s Comments on Management’s Response .......................................................... 8

APPENDICES

 Appendix I - Sampling Methodology and Results of Random Sampling .................................. 9
 Appendix II - Management’s Response .................................................................................12




                                                                     i
                                   INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) audit of the
Railroad Medicare Part B eligibility and premium collection process at the Railroad
Retirement Board (RRB).


Background

The RRB is an independent agency in the executive branch of the Federal government.
The RRB administers the retirement/survivor and unemployment/sickness insurance
benefit programs for railroad workers and their families under the Railroad Retirement
Act and the Railroad Unemployment Insurance Act. These programs provide income
protection during old age and in the event of disability, death, temporary unemployment,
or sickness. The RRB paid approximately $11.1 billion in retirement/survivor and
unemployment/sickness benefits to approximately 607,000 beneficiaries during fiscal
year (FY) 2011.

Medicare

Medicare is the Federal health insurance program for people age 65 and older. Certain
people who are under 65 can qualify if they are disabled. Medicare helps with the cost
of health care but does not cover all medical expenses or the cost of long term care.
Medicare is financed by a portion of the payroll taxes paid by workers and their
employers. It is also financed by monthly premiums paid by Medicare beneficiaries.
The Centers for Medicare & Medicaid Services (CMS) of the U.S. Department of Health
and Human Services is in charge of the Medicare program.

Medicare Part A hospital insurance covers approved inpatient services in a hospital,
skilled nursing facility, home health care, and hospice services. The Part A program is
financed by special contributions from employees and self employed individuals, with
employers paying an equal amount. Most beneficiaries do not have to pay premiums
for Part A coverage.

Medicare Part B medical insurance helps pay for doctors’ services and many other
medical services and supplies that are not covered by hospital insurance. Anyone who
is eligible for free Medicare hospital insurance (Part A) can enroll in medical insurance
(Part B) by paying a monthly premium. An individual not eligible for free hospital
insurance can also purchase medical insurance if they are 65 or older. Typically,
beneficiaries with higher incomes will pay a higher premium. In addition, eligible
participants who do not enroll when first eligible may be subject to a penalty of 10% for
each 12-month period the participant could have been, but was not enrolled for Part B.




                                             1
Railroad Medicare

In May 1966, the Social Security Administration (SSA) delegated authority to the RRB
for administering certain provisions of the Medicare program for Qualified Railroad
Retirement Beneficiaries (QRRBs). These provisions included enrollment, premium
collection and selection of a carrier to process Medicare Part B claims. The enactment
of Public Law 92-603 in October 1972 amended the Social Security Act and granted the
RRB jurisdiction over all QRRB's that were receiving benefits from both the RRB and
the SSA. At the end of FY 2011, approximately 482,000 railroad retirement
beneficiaries were enrolled in Medicare Part A of whom approximately 464,000 enrolled
in Part B of the program.

Within the RRB, the Office of Programs is responsible for enrollment, premium
collections and refunds, and record maintenance for QRRBs.

Information about eligible aged and disabled Medicare beneficiaries is entered into the
RRB’s Medicare computer system, Medicare Information Recorded, Transmitted, Edited
and Logged (MIRTEL). RRB uses MIRTEL to edit the information, sets up a pending
record for the beneficiary, and transmits the information to CMS and the Social Security
Administration (SSA).

As part of its oversight responsibilities under the Inspector General Act of 1978, as
amended, the RRB-OIG conducts audits and investigations of alleged fraud, waste, and
abuse within the Railroad Medicare program. For approximately ten years, beginning in
fiscal year 1997, an appropriations law restriction prohibited the RRB-OIG from
conducting Railroad Medicare oversight activities. In December 2007, Public
Law 110-161 restored the RRB-OIG's oversight authority for Railroad Medicare.

Program risks include ineligible participants receiving hospital and medical coverage,
the correct amount of premiums not being collected, and participants entitled to and
requesting participation not being properly enrolled. This audit addresses the RRB’s
strategic objectives of paying benefits accurately, and ensuring effectiveness and
efficiency of operations.


Audit Objectives

The objectives of the audit were to determine if Railroad Medicare participants were
actually eligible for the Railroad Medicare program, whether Part B premiums and
penalties were correctly assessed, and if adequate documentation was acquired and
maintained when Part B is declined.




                                            2
Scope

Our audit scope included those QRRBs that were maintained in the MIRTEL system as
of November 2011.

Methodology

To accomplish our objectives, we:

   •   reviewed laws and regulations related to the RRB’s participation in Medicare;
   •   documented RRB policies and procedures;
   •   conducted interviews with appropriate RRB management and staff;
   •   identified key automated processes related to the Railroad Medicare operations;
   •   identified key internal controls and assessed the effectiveness of the controls;
   •   performed detailed tests of annuitants’ records;
   •   verified the accuracy of Medicare Part A only enrollments; and
   •   verified the accuracy of Medicare Part B premiums, and Medicare penalty
       amounts.

Our testing methodology considered the risks inherent with unreliable data and the
availability of corroborating evidence in the form of source documents as recommended
by the Government Accountability Office. We determined whether computer processed
data could be used for testing purposes by validating that our data extract was
equivalent to the data residing in the MIRTEL system.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

We conducted our fieldwork at the RRB’s headquarters in Chicago, Illinois from
July 2011 to June 2012.




                                            3
                                    RESULTS OF AUDIT

Our review determined that the tested Railroad Medicare participants were eligible for
and enrolled in the Railroad Medicare Program and that adequate supporting
documentation was acquired and maintained when Medicare Part B was declined.
However, Railroad Medicare Part B program controls were not always effective to
ensure that manually computed entitlement dates are correct and that Medicare Part B
premium penalties were properly assessed when manual intervention was required.
Additionally, Medicare data inconsistencies were found to be present both within the
RRB’s MIRTEL system and when MIRTEL was compared with CMS system records.
Our review disclosed the following weaknesses:

    •   A penalty amount was omitted from a manual Part B Medicare premium
        determination.
    •   Ineffective controls exist for manually determining Railroad Medicare entitlement
        dates for disabled children.
    •   Inconsistencies were found between MIRTEL and the CMS’ system records; in
        both instances RRB dual annuitant beneficiary records were involved. 1

The details of our findings and recommendations for corrective action are discussed
throughout the remainder of this report.


Manual Penalty Amount Was Omitted From the Part B Premium Determination

Our review identified a penalty amount that was omitted from the Part B premium
determination. Our review of 72 Medicare premium cases identified one disabled
beneficiary with an incorrect Medicare Part B premium for a closed two month period in
2004. A penalty rate should have been in effect, but was erroneously omitted.

The Medicare handbook, Medicare and You, states that a Medicare Part B premium
rate is increased by a 10% penalty over the basic rate amount for each 12 month period
that the beneficiary could have been, but was not enrolled for Part B. If the beneficiary
did not enroll for Medicare Part B at any time during his initial enrollment period, he
would not get a chance to enroll until the next general enrollment period (January 1
through March 31). If this happens, the annuitant could be assessed a premium penalty
for late enrollment, if the general enrollment period was 12 or more months after his
initial enrollment period, unless the beneficiary qualified for a special enrollment period.




1
 An RRB dual annuitant beneficiary is any case in which a person applies for or may be entitled to an
annuity on each of two different RRB account numbers. One of the account numbers is considered the
primary record and the other is considered the secondary.


                                                   4
The omission of the penalty amount was the result of a manual error made by an RRB
Medicare examiner. The Medicare examiner’s action to change the Medicare Part B
entitlement was incomplete; the effective date was changed to the correct effective
date, but they did not change the premium rate to include the penalty amount. The
unique timing attributes of this case also contributed to the examiner error.

As a result of the omission of the penalty amount, the Medicare Part B premium was
lower than it actually should have been for a two month period. The total amount of this
error for the period amounted to $66.60. The transfer of the premium to CMS was
incorrectly understated by this amount as a result of this omission. While the
understatement was not material, other similar instances where penalties were not
assessed may be present in the universe of cases that were not tested within our
sample.

Recommendations

We recommend that the Office of Programs:

1. take the necessary actions to establish and collect the receivable amount of the
   penalty for this beneficiary; and

2. issue a reminder alert with instructions for correctly processing closed period manual
   penalty amounts.

Management’s Response

In response to recommendation 1, the Office of Programs advised that the receivable
amount was collected on August 30, 2012.

In response to recommendation 2, the Office of Programs plans to provide the
recommended training by September 30, 2012.


Ineffective Controls for Determining Medicare Entitlement Dates for Disabled
Children

An RRB Medicare examiner did not properly determine the entitlement date for a
disabled child annuitant and the RRB’s control process did not identify the error. Our
case review identified one disabled child with an incorrect Railroad Medicare Part A
entitlement date.

The Medicare examiner manually determines the effective date by choosing the latest of
five applicable dates. In this case, the examiner miscalculated the latest of the five
dates.




                                            5
The process for determining Medicare entitlement dates for disabled children is a
manual process that is completed by Medicare examiners and is not subject to
secondary review. As a result, this process is at a greater risk of making an incorrect
determination of the Railroad Medicare entitlement date.

An incorrect Railroad Medicare entitlement date can lead to erroneous claims being
processed for the period that the beneficiary was not actually entitled to benefits. As the
entitlement date for the case was effective in 1995, we were unable to determine if
erroneous Railroad Medicare claims were processed for that record based on the
incorrect entitlement date.

Recommendation

3. We recommend that the Office of Programs provide further training to claims
   examiners that will address the risks of making an incorrect manual determination
   when processing Medicare claims for disabled children.

Management’s Response

In response to recommendation 3, the Office of Programs plans to implement a new
form to support the manual determination process and provide training by December
31, 2012.

RRB-OIG’s Comments on Management’s Response

In its response to our report, the Office of Programs also stated that the audit test
results showed that controls operated effectively in at least 98% of cases tested and
that the audit identified only two errors, both occurring more than 8 years ago.

Our testing did not employ statistical sampling; therefore this rate of accuracy cannot be
projected to the population. Additionally, each of the sample cases reviewed did not
include the specific characteristics of the errors that required manual intervention. For
example, only one of the tested cases required a manual penalty calculation and this
case was found to be in error. Similarly, only one tested case involved a disabled child
which required a manual determination of the eligibility date. Again, this single manual
calculation case was found to be in error. As such, the error rate for the population
cannot be projected based on the limited number of cases in our sample with the
specific characteristics.




                                            6
Inconsistent RRB Dual Annuitant Beneficiary Records Exist within RRB’s MIRTEL
System

Inconsistent records were identified in the MIRTEL system that did not accurately reflect
the actual status of Medicare entitlement. In 26 cases where the Medicare beneficiary
was classified as an RRB dual annuitant beneficiary, 9 had dates in their secondary
records and 17 had no dates in the secondary record. In addition, 21 of the 26 RRB
dual annuitant beneficiaries were inconsistently cross referenced in CMS system
records.

Guidance provided within the Government Accountability Office’s publication, Assessing
the Reliability of Computer-Processed Data, states that: “Consistency, a subcategory of
accuracy, refers to the need to obtain and use data that are clear and well defined
enough to yield similar results in similar analyses. For example, if data are entered at
multiple sites, inconsistent interpretation of data entry rules can lead to data that, taken
as a whole, are unreliable.”

RRB officials were unable to provide a clear explanation as to why these
inconsistencies would occur in the MIRTEL system. One possible cause provided is
that because these were old cases they might have been part of a MIRTEL Master
Conversion of information and during the conversion some record fields did not get
updated. However, all of the RRB dual annuitant beneficiary cases reviewed were
properly cross-referenced to their primary account in MIRTEL, which did contain the
correct Medicare entitlement information.

Incomplete information in a MIRTEL record can impact the data that is provided to CMS
for use in their systems in which Medicare claims are processed. If RRB dual annuitant
beneficiary records within the RRB’s MIRTEL system do not contain complete
information in all data fields, consistency with CMS system records cannot be ensured.
If a record is not accurately cross referenced, there is the possibility that duplicate
Medicare claims can be filed and processed.

Recommendation

   4. We recommend that the Office of Programs evaluate the impact of the
      inconsistent RRB dual annuitant beneficiary records in MIRTEL and ensure that
      these records do not present a risk for processing duplicate Medicare claims.

Management’s Response

In response to recommendation 4, the Office of Programs reviewed the example cases
that were provided by the RRB-OIG in preparation for the closing conference. The
Office of Programs determined that the questioned records date back to the early 1980s
when the MIRTEL file was created from legacy data and concluded that the records
present no risk to current processing. The Office of Programs shared its conclusions at
the closing conference and continues to believe that the issue has been fully explored.



                                             7
RRB-OIG’s Comments on Management’s Response

While the Office of Programs has provided a reasonable explanation in response to our
concerns, we have not received documentation supporting the results of its case review
that will enable us to validate their conclusion.

In responding to our concerns over the accuracy of the secondary MIRTEL records of
certain dual annuitants, the Office of Programs stated that the Services Tracking,
Analysis, & Reporting System (STARS) is not an operational source of entitlement or
enrollment information for claims processing and that its systems do not exchange data
with STARS.

The RRB transmits MIRTEL record data to CMS on a daily basis. CMS’ Medicare
claims data is the direct source for its STARS national database. However, the primary
concern for the Office of Programs is whether duplicate Medicare claims can be
processed.




                                          8
                                                                                         Appendix I


SAMPLING METHODOLOGY AND RESULTS OF RANDOM SAMPLING
This appendix presents the methodology and results of our random sample test for the
verification of Part A and Part B enrollment and premium calculations.


Sample Objectives

Our random sampling objectives were as follows:

1. To verify the accuracy of Medicare Part B enrollment dates and premiums rates.
2. To determine if the records pertaining to beneficiaries with Medicare Part A
   coverage and no Part B coverage are accurate.
3. To verify that there were no improper Medicare Part A and/or Part B claims paid to
   Railroad beneficiaries.
4. To determine if the records pertaining to Railroad beneficiaries with no Medicare
   Part A coverage and no Part B coverage are accurate.
5. To determine if any inconsistencies exist in the RRB’s MIRTEL and CMS system
   records pertaining to RRB Dual Annuitant Beneficiaries.


Scope

The scope for each of the above mentioned tests are as follows:

1. For our first objective, we selected a random sample of 72 records from a population
   of 469,107 Railroad beneficiaries with Medicare Part B coverage in force as of
   November 21, 2011.
2. For our second objective, we selected a random sample of 50 records from a
   population of 16,318 Railroad beneficiaries with Medicare Part A coverage and no
   Medicare Part B coverage in force as of November 21, 2011.
3. For our third objective, we used the 50 records from our second test and queried
   CMS system records on April 10, 2012. We also used the 21 records from our
   fourth test and queried CMS system records on April 12, 2012.
4. For our fourth objective, we reviewed the population of 21 Railroad beneficiary
   records with no Medicare Part A and no Medicare Part B coverage in force as of
   November 21, 2011.
5. For our fifth objective, we reviewed 26 RRB Dual Annuitant Beneficiary records in
   force as of November 21, 2011. 2


2
  Five records were included in the 50 sample records mentioned in our second test, and the remaining
21 came from the 21 records reviewed in our fourth test.

                                                  9
                                                                                                         Appendix I


Sampling Methodology

We randomly selected our sample items from QRRBs in the RRB’s MIRTEL system as
of November 21, 2011.


Data Consistency

We tested data consistency by comparing Medicare information in the RRB’s MIRTEL
system to information contained in CMS system records. We also determined if all RRB
Dual Annuitant Beneficiaries were handled the same way in the RRB’s MIRTEL system
as well as in CMS system records.


Data Accuracy

We verified that the Railroad Medicare enrollment date had been accurately determined
and that the correct Railroad Medicare premium amount for the period had been
assessed.


Results of Sampling

Our testing identified 469,107 MIRTEL records with Medicare Part B premiums in force
as of November 21, 2011. Our testing of randomly selected samples of records is
summarized in the table below.




                                                                                                            Error Rates
                                                                                       Exceptions
                                                                          Exceptions
                                                            Tested




                                                                            Non-




                Random Sampling



    Test attributes

Internal Control Effectiveness
Railroad Medicare premium rate                                       72           71                1           (1%)
Railroad Medicare enrollment dates                                   50           49                1           (2%)
Improper Medicare claims paid                                        71           71                0           (0%)
Accuracy of Medicare records                                         21           21                0           (0%)

Data Consistency 3
MIRTEL record inconsistencies                                        26           17                 9     (35%)
CMS record inconsistencies                                           26            5                21     (81%)

                                   Total Exceptions                                                 32
3
  Five records were included in the 50 sample records mentioned in our second test, and the remaining
21 came from the 21 records reviewed in our fourth test.

                                                  10
                                                                             Appendix I



As a result, we can conclude that the tested Railroad Medicare participants were eligible
for and enrolled in the Railroad Medicare Program and that adequate supporting
documentation was acquired and maintained when Medicare Part B was declined.
However, Railroad Medicare Part B program controls were not always effective to
ensure that manually computed enrollment dates are correct and that Medicare Part B
premium penalties were properly assessed when manual intervention was required.

Because all of our sample cases did not require a manual computation, the full extent of
the manual errors could not be determined. Additionally, Medicare data inconsistencies
were found to be present both within the RRB’s MIRTEL system and when MIRTEL was
compared with CMS system records.




                                           11
13
